<html>
<title> - NOMINATION OF LIEUTENANT GENERAL MICHAEL V. HAYDEN, USAF, TO BE PRINCIPAL DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 109-270]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 109-270
 
                    NOMINATION OF LIEUTENANT GENERAL
                MICHAEL V. HAYDEN, USAF, TO BE PRINCIPAL
                DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               before the

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2005

                               __________

      Printed for the use of the Select Committee on Intelligence



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-985                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                     PAT ROBERTS, Kansas, Chairman
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              EVAN BAYH, Indiana
OLYMPIA J. SNOWE, Maine              BARBARA A. MIKULSKI, Maryland
CHUCK HAGEL, Nebraska                JON S. CORZINE, New Jersey
SAXBY CHAMBLISS, Georgia
                   BILL FRIST, Tennessee, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                              ----------                              
                      Bill Duhnke, Staff Director
               Andrew W. Johnson, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                                CONTENTS

                              ----------                              
Hearing held in Washington, DC:
    April 14, 2005...............................................     1

Statements of:

    Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
      Maryland...................................................     6
    Murtha, Hon. John P., a U.S. Representative from the State of 
      Pennsylvania...............................................     8
    Hayden, Lieutenant General Michael V.........................     9

Supplemental Materials:

    Senate Select Committee on Intelligence Questionnaire for 
      Completion by Presidential Nominees........................    33
    Additional questions.........................................    65
    Glynn, Marilyn L., General Counsel Office of Government 
      Ethics, Letter to Hon. Pat Roberts.........................    72


                    NOMINATION OF LIEUTENANT GENERAL
                     MICHAEL V. HAYDEN, USAF, TO BE
                      PRINCIPAL DEPUTY DIRECTOR OF
                         NATIONAL INTELLIGENCE

                              ----------                              


                        THURSDAY, APRIL 14, 2005

                               U.S. Senate,
            Senate Select Committe on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:33 a.m., in 
room SH-216, of the Hart Senate Office Building, the Honorable 
Pat Roberts, Chairman of the Select Committee on Intelligence, 
presiding.
    Committee Members present: Senators Roberts, Hatch, DeWine, 
Snowe, Chambliss, Rockefeller, Levin, Feinstein, Wyden and 
Mikulski.

        OPENING STATEMENT OF HON. PAT ROBERTS, CHAIRMAN

    Chairman Roberts. The Committee will come to order. The 
Committee meets today to receive testimony on the President's 
nomination for the newly created position of Principal Deputy 
Director of National Intelligence. Our distinguished witness 
today is the President's nominee, Lieutenant General Michael 
Hayden.
    General, on behalf of the entire Committee, we welcome you 
and your guests. We thank you for your service to our country.
    I might just say from a personal standpoint that I have 
never experienced a person who has more ability than you in 
regards to your responsibilities. I don't know who's in first 
place in regards to being a straight, let-the-chips-fall-where-
they-may briefer to the Congress, but they're not ahead of you.
    Let me say that the Committee also welcomes two of our 
distinguished colleagues who will introduce the nominee, the 
distinguished Senator from Maryland, a Member of our 
Committee--valued Member of our Committee--and the Ranking 
Member of the Commerce, Justice, State and Judiciary 
Appropriations Subcommittee, the Honorable Barbara Mikulski.
    The distinguished Senator from Pennsylvania, the Honorable 
Rick Santorum, had every intention to be here this morning, but 
had a conflict. But Pennsylvania will be ably represented by 
the Ranking Member of the House Defense Appropriations 
Subcommittee, a defender and champion of the military and our 
national security for many years, the Honorable Jack Murtha.
    So we thank you all for being here today.
    The President has made an excellent choice, I believe, in 
nominating General Hayden to serve as the Nation's first 
Principal Deputy Director of National Intelligence. General 
Hayden is a distinguished public servant, having dedicated over 
35 years of service to our country.
    Since March 1999, General Hayden has served as the Director 
of the National Security Agency. Prior to that, he held a 
number of intelligence positions within the Department of 
Defense, served on the National Security Council, and was the 
air attache in the U.S. Embassy in Bulgaria. He has worked on 
intelligence and national security issues throughout his 
career, and in that respect brings a great deal of experience 
to this position.
    Most importantly, just like Ambassador Negroponte, General 
Hayden has demonstrated a record as an outstanding manager and 
a leader. He is well-suited for this position and I look 
forward to his confirmation.
    Now, much of what I spoke about in my opening statement for 
Ambassador Negroponte's confirmation hearing on Tuesday also 
applies in our consideration of General Hayden's nomination. I 
know it probably doesn't need to be repeated at length, and I 
beg the indulgence of my distinguished Vice Chairman, but if 
you would indulge me just for a moment.
    I spoke about how critical intelligence is for our national 
security and the historical importance of the creation of a 
Director of National Intelligence, even if he hasn't been 
granted all of the explicit authorities that I would have liked 
to have seen.
    I also spoke about the importance of change, not only to 
enhance our national security but also to give our hardworking 
intelligence officers an intelligence community worthy of their 
efforts, an intelligence community capable of meeting both 
their aspirations and our expectations. I emphasized the 
importance of adopting a process of sustained, fundamental 
change that will allow the intelligence community to 
continually adapt to new threats as they emerge.
    I spoke about the important precedents that Ambassador 
Negroponte and General Hayden will be setting in terms of the 
authorities they exercise as the first DNI and the Principal 
Deputy. These precedents will define the authority for all 
future DNIs and set the tone for your leadership of the entire 
intelligence community.
    The one issue that I discussed on Tuesday with Ambassador 
Negroponte that I would like to re-emphasize today is the 
pressing need to reject the concept of information sharing. In 
this particular case, both Senator Rockefeller and I are in 
favor of something that we call information access. General, if 
you are confirmed--and you will be--I believe that moving from 
information sharing to information access will probably be your 
most important job.
    As I have said many times before, I believe, as does the 
WMD Commission, that information sharing is a limited idea that 
falsely implies that the data collector is also the data owner. 
The concept of information sharing relies on the collector to 
determine what an analyst needs to know and then to push that 
information to the analyst.
    The Vice Chairman and I think that we need new thinking on 
this issue, and he has spoken to it, as I have. We need to 
reverse the process, while we must continue to protect sources 
and methods, without any question. Cleared analysts with the 
need to know should be able to pull information by searching 
all intelligence data bases without waiting for any one agency 
to deem them worthy. That's a pretty challenging proposition.
    Despite the intelligence failures of 9/11 and the 
assessment of Iraq's WMD program, along with the staggering and 
sometimes willful inability to share information associated 
with those failures, achieving a free flow of intelligence 
information has proven rather elusive.
    Now, General Hayden, it's my hope that you will be able to 
provide the leadership to get our collection agencies to 
finally perfect the concept of information access. I am 
encouraged by your written responses to the Committee's 
questions in regard to this topic. I would note, however, for 
the last several years, that you have been managing the 
National Security Agency--and the NSA will be key when it comes 
to achieving information access.
    That's not to say that you have not made some strides--good 
strides. But agencies like the NSA must lead and move faster in 
getting properly cleared analysts from outside agencies the 
direct access that they need.
    The Senate Select Committee on Intelligence will be working 
with you, seeking your advice and counsel, and Ambassador 
Negroponte, and we hope and expect to see clear signs of 
progress toward information access sooner rather than later.
    Now, the volume of the data in question is an issue that we 
must watch carefully, but I believe that current technology can 
provide the tools to manage that volume.
    In regards to privacy issues, I think that properly trained 
intelligence professionals outside the NSA are no less capable 
of protecting civil liberties than the professionals inside the 
NSA. I also understand that specialized analysis by experienced 
officers, whether it be SIGINT or HUMINT or otherwise, adds 
substantial value to the analytic process. Access by other 
intelligence analysts will not replace that very important 
work.
    there's no reason that other analysts cannot have access to 
the data they need to keep us safe. If those analysts find data 
and have a question, they should call a specialist. But if they 
don't even know the information exists, obviously they can't 
make that call.
    Another important challenge to information access that you 
mentioned in your written response is the need to protect 
sources and methods. I agree. This is a very serious matter. 
But I hasten to add that the lessons of 9/11 and the Iraq WMD 
failures is that protecting sources and methods must be 
balanced against the need to provide information access to 
those who actually need it.
    So today, those competing concerns are not really properly 
balanced. And you, sir, must fix that. I have every confidence 
that you can and will. Simply put, we must see progress toward 
information access. So we hope to see you up here telling this 
Committee what help you need from Congress to get the job done. 
We're most willing to help you achieve that.
    Despite the ambiguities in the DNI authorities, I am 
confident, when confirmed, you and the Ambassador will have the 
strong support of the President. You, sir, should be confident 
that you will have the same strong support from this Committee.
    As we discussed with Ambassador Negroponte on Tuesday, 
exercising the authorities of the DNI will not be easy. Setting 
the precedent of a strong DNI will likely mean the two of you 
may have to break some china. Start with the cups and the 
saucers first and then we'll see what happens. I am confident, 
however, that you and the Ambassador are the right team for 
this job.
    With that said, I welcome you to the Committee and look 
forward to your testimony.
    I now recognize the distinguished Vice Chairman.

OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, VICE CHAIRMAN

    Vice Chairman Rockefeller. Thank you, Mr. Chairman, and 
welcome, General Hayden.
    One of the things that is not in my statement, but which I 
really feel strongly about and have said repeatedly, is that 
the combination of Ambassador Negroponte and you, sir, is an 
absolutely magnificent combination, because he brings the 
diplomatic, intuitive, political, how do you get people to 
agree to do things they don't want to do, and you bring with 
you all of the military, the intelligence, all of that, and the 
managerial skills--which he also has. The two of you working 
together strikes me as quite a remarkable and excellent team.
    Now there are three other deputies, and I want to ask you 
about that in the question period.
    But I can say what a good choice the President made in both 
of you, together. Each of you is strong on your own. Together, 
you're going to, I think, be able to make enormous changes in 
our intelligence community.
    Interestingly, over the period that I've been here, this is 
only the second time you've appeared in public, which is the 
way our business sort of works. But I'm very glad that we could 
do this the same week as Ambassador Negroponte, because the two 
of you, as I said, make an incredibly impressive tandem.
    I like the fact that you're a strong manager. You came to 
the NSA at a time of real crisis. A short time after your 
arrival, the problems became so severe that the agency's 
computer system crashed, and we were left without any ability 
to process signals intelligence for 3 days. Now, in our world, 
that's called a huge crisis and a great danger.
    Just having arrived, you guided the agency through the 
emergency and then set about overhauling the NSA from top to 
bottom, unafraid to make changes.
    The Director of Central Intelligence and the Secretary of 
Defense have had such confidence in your abilities that they 
have extended your tour of duty at NSA three times.
    The challenges that you have faced in reforming the NSA 
should go a long way toward preparing for the job that we all 
have ahead of us. You've had to fight an entrenched bureaucracy 
resistant to input from outsiders. You've had to break old 
patterns of behavior. You've had to create new structures, 
which you've been kind enough--or your team--to show me. And 
you've had to create new procedures to bring NSA into the 
information age. All of that, you have done.
    It's not always been a smooth process, but you've continued 
to push, to cajole, coerce and occasionally force those changes 
to take place.
    At Ambassador Negroponte's hearing on Tuesday, I, as the 
Chairman indicated, listed a number of points which I want to 
go through also.
    First, I think you must create the structures and 
procedures needed to ensure that our intelligence is timely and 
objective and independent of political considerations. This is 
all required by law in the National Security Act as amended by 
the Intelligence Reform Act. This is your mission. You must 
succeed in order to restore the intelligence community's 
reputation, not that it is damaged as much as some would have 
people think, but there's a lot of work to be done there.
    Second, you have to take the blueprint provided by the 
intelligence reform bill and you have to use it to transform 15 
agencies, bring them together. That sounds like a very 
impossible thing to do, but I think that you're going to come 
very close to being able to do that, the two of you and the 
other three deputies and the management team at the DNI.
    You have to make them into a real community, with central 
coordination, central direction, an ability to have access to 
information, as the Chairman indicated, not just sharing. But 
then there will be caveats for that, because sometimes there 
really is a need-to-know basis. You understand very well how 
the complexities of all of that have to be balanced.
    Third, you must instill a sense of accountability 
throughout the intelligence community. I think all of us on 
this Committee feel that it's been a long time now since 9/11 
and there's been no accountability for 9/11.
    This isn't just about 9/11. It's about the next 30 or 40 
years. The concept of accountability, I think, has to built in 
early. Accountability is not just punishing people or 
dismissing people. It's also about encouraging people who have 
done good work, letting them know about it and making sure that 
others in the agencies know about that. People--that's the 
nature of people. They need to be rewarded when they've done 
well. I think that it just goes to say that when people haven't 
done well, they also need to know that.
    Fourth, you will need to develop a comprehensive and 
consistent legal and operational policy on the detention, 
interrogation and rendition of prisoners across the 
intelligence community. The intelligence we gain through these 
interrogations is too important to allow shortcomings in this 
program. I trust you share my concern and I hope you'll assist 
our Committee in undertaking a constructive inquiry into the 
detention, interrogation and rendition practices.
    Finally, you and Ambassador Negroponte are assuming your 
positions in the midst of Congressional consideration of the 
President's intelligence budget for fiscal 2006. You had input 
to the NSA budget, obviously, but now you're going to be 
responsible for spending across a huge community. I urged the 
Ambassador to review the priorities and submit a budget 
amendment if necessary. It may not now be necessary, because of 
a meeting that took place yesterday.
    When there are budget deficiencies, whether they be at 
supplemental time or otherwise, that you will be very sure that 
we know about that, because this Committee wants the 
intelligence community to work. We now have the vehicle for it 
in which it can work--through which it can work. The vehicle is 
not entirely proscribed by law, and that's good, because that 
means that the two of you and your colleagues will be able to 
fill that out in a way which is more intelligent than perhaps 
the way the Congress would do it.
    The Ambassador is going to need your expertise not only to 
understand the intricacies of nuances of the intelligence 
business, but to navigate the minefields of all of these 
rivalries. He understands a lot of that intuitively already, 
because he's a real pro, and there's not much that goes on in 
government that he misses.
    So you're taking on a great responsibility. I have enormous 
confidence in you to take up this task. I was absolutely 
delighted when you were appointed, and I welcome you and look 
forward to your statement.
    Chairman Roberts. Thank you, Senator Rockefeller.
    I now recognize the distinguished Senator from Maryland, 
Senator Mikulski, a valued Member of this Committee.

         OPENING STATEMENT OF HON. BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. I'm 
happy to be here with my colleague from Pennsylvania, 
Congressman Murtha, who I served with.
    First of all, it's a great honor to introduce Lieutenant 
General Michael Hayden to the Committee, to be the Principal 
Deputy Director of National Intelligence. I've come to know 
General Hayden well as the Director of the National Security 
Agency. Maryland is very proud to be the home of the National 
Security Agency.
    We, in Maryland, are very proud of the fact that we have 
Federal agencies that are devoted to saving lives and saving 
communities, whether it's the National Institutes of Health 
that come up with new cures to help our people, whether it's 
the FDA that stands sentry over our food and our drug supply, 
and also the National Security Agency that is the greatest 
eavesdropper to protect our country against predatory attacks 
when the homeland and our troops and our assets.
    General Hayden has absolutely distinguished himself as both 
a soldier as well as a leader at the National Security Agency. 
I've come to know him as a soldier, as a patriot, and an 
intelligence professional--and absolutely as a leader and a 
manager.
    He grew up in a blue collar neighborhood in Pittsburgh, and 
brings those all-American values to the table and puts those 
values into action. His dad was a welder, and through his 
family he knew that in this country hard work, merit, devotion 
to duty would really take you somewhere.
    Attending the Catholic high school, he was a student and an 
athlete. He went to Duquesne University, and came into the 
military through the Air Force ROTC, and there he served in a 
variety of military roles, each time assuming greater 
responsibility. It's there for the resume to speak for itself.
    He has served in direct support of the warfighters and in 
sensitive, diplomatic roles. He served in lead command at 
military bases. He's had senior, sensitive national security 
positions in Washington. He even led a military delegation to 
negotiate with North Korean generals. If you learn to negotiate 
with North Korean generals, he's learned to navigate the intel 
system.
    Most impressively has been his accomplishment as the leader 
at NSA. Long before 9/11, General Hayden was embarked not only 
on reform, but on transformation. This was an agency, when he 
came to his post, that was an analog agency in a digital world. 
It had served the country fantastically through the cold war, 
protecting our country. But a cold war orientation had to be 
transformed. He led that transformation at breathtaking speed, 
through a series of technological innovations, a series of 
technological crises, and at the same time streamlining the 
organization, recognizing the duty of the cold warriors and yet 
bringing in that next generation of the cyber warriors that 
we've come to depend upon.
    He looked for the best people, the best ideas, valued the 
employees. He also turned to academia and turned to the private 
sector if necessary to get that cutting edge of the people and 
technology.
    At the same time, he connected to the world of public 
information. The NSA has had an incredible mystique. Books like 
``The Puzzle Palace'' has been written about it. Even Dan Brown 
of ``The DaVinci Code'' has written about NSA, called ``The 
Digital Fortress.''
    What General Hayden did, by engaging with the press, he 
demystified the agency without declassifying the agency--a 
pretty spectacular feat. He provided a more public face in the 
national security mission, and what that did was build 
confidence that we were truly standing sentry in our own 
country.
    Members of this Committee are well aware of the historic 
accomplishments of NSA, as well as the future challenges the 
agency must confront, including the exploding volume of global 
communication, the sophistication of our enemies. General 
Hayden has an understanding that is a tremendous understanding 
of where we are, not only on signals intelligence, but where we 
are.
    He understands how we need to support the warfighter, but 
also the great strategic thinking that needs to be done.
    He's never been willing to rest on yesterday's achievements 
or remain satisfied with today's capabilities--always thinking 
and planning about how we can do better today, and how we can 
be spectacular tomorrow.
    That's why I'm here to endorse his nomination before the 
Committee and we want to recognize that, for every soldier that 
serves our country, that soldier, 24/7, particularly in the 
jobs that General Hayden has had, has been his wonderful wife, 
who we mean to recognize for her service to the country here, 
and also to his devoted family.
    So I look forward to not only introducing him, but to 
voting for him and then working with all of us to keep our 
country safer and stronger.
    Thank you.
    Chairman Roberts. Senator Mikulski, we thank you.
    It is now my privilege to recognize my former House 
colleague and fellow Marine, the distinguished gentleman from 
Pennsylvania, Mr. Murtha.
    Jack, semper fi.

                STATEMENT OF HON. JOHN P. MURTHA

    Representative Murtha. Thank you very much. Semper fi, Mr. 
Chairman.
    I have a plaque on my desk that says, ``Victory is complete 
knowledge of the enemy.'' I was in the intelligence field in 
Vietnam, and I've worked on this subcommittee that funds NSA 
for 25 years. I've never seen an individual that had more 
integrity, more responsibility and more straightforward than 
Mikey Hayden. He told me not to say Mikey Hayden. His brother 
calls him that.
    [Laughter.]
    Chairman Roberts. Well, rest assured I'm not going to call 
him Mikey either.
    [Laughter.]
    General Hayden. Thank you, Mr. Chairman.
    Representative Murtha. This guy has got, I think, one of 
the most difficult jobs in the government today.
    We have a small agency in Johnstown, Pennsylvania, called 
the National Drug Intelligence Center. We have five agencies--
the FBI, the CIA, the National Guard. We had to have the 
Attorney General come in and tell them to work together. What 
you said, Mr. Chairman, as you started out was they all find 
every excuse in the world not to work together, stovepipe the 
information, not give access to anybody else.
    This guy took a cold war organization and he had an 
explosion of technology which he had to get under control. We 
watched the money as closely as we can. He did it within the 
bounds of the amount of money that was given to him. Sometimes 
we had to cut back a little bit. But as a whole, I've never 
seen a better manager.
    So the team that Senator Rockefeller talked about is a 
marvelous team. I hated to say--I told Vice President Cheney 
this the other day--I hated to see him pull Ambassador 
Negroponte out of Iraq right at such a crucial time. Well, he 
assured me the new guy is going to be just as good.
    The point is this job is absolutely the most important job 
that you could possibly be put into, because intelligence is 
the key to the way we have our resources deployed. We look at 
the intelligence briefing from the very start and we say, OK, 
where are we going to spend our money? How are we going to 
address the threat?
    So I'm impressed. I highly endorse General Hayden, and I 
know that the Senate is going to ratify that endorsement. I 
appreciate the opportunity to be before this august body, even 
though it's a step down from the House, what the hell.
    [Laughter.]
    Chairman Roberts. I must admit that when I was a Member of 
the other body I did once refer to the Senate as the cave of 
the winds.
    [Laughter.]
    Chairman Roberts. But Senator Dole and Senator Kassebaum 
set me straight real quick.
    Representative Murtha, thank you very much. Thank you, too, 
Senator Mikulski for being here to introduce this very fine 
nominee.
    General Hayden, you may proceed. I would like to ask that 
you begin by introducing the family members that you have with 
you here today.

       STATEMENT OF LIEUTENANT GENERAL MICHAEL V. HAYDEN,

             PRINCIPAL DEPUTY DIRECTOR OF NATIONAL

                         INTELLIGENCE-
                           DESIGNATE

    General Hayden. All right, Senator.
    Vice Chairman Rockefeller. Mr. Chairman, just before that, 
I'm glad that the Chairman made that suggestion. But I think 
that your testimony now gives you an opportunity to rebut the 
withering criticism that you've had to withstand so far.
    [Laughter.]
    General Hayden. Thank you. I appreciate the opportunity, 
Senator. Thank you.
    Let me introduce the members who are here with me today. 
First of all my wife, Janine, who is a counselor by training 
and frankly has been a supporter for me and a partner in my 
work for over 37 years now. At NSA, she personally took on the 
responsibility of supporting Agency families. She began the 
work before the attacks in 2001, and really accelerated it 
after September 11th. She formed the Agency's Family Action 
Board, and continues to serve on the board as an adviser.
    I've got my brother Harry here, and our daughter Margaret, 
who is an officer in the Air Force Reserves. She has two 
brothers, our sons, but they couldn't be with us here today. 
But I'm honored that these members of the family could be 
present.
    Chairman Roberts. Please proceed with your statement, sir.
    General Hayden. Well, thank you.
    Chairman Roberts. We welcome your family.
    General Hayden. Mr. Chairman and Members of the Committee, 
I've been before you many times before, but not quite in 
circumstances like today.
    First of all, let me say I'm honored to be introduced by 
Congressman Murtha. The folks back home in Pittsburgh will be 
elated that I'd been introduced by such a distinguished western 
Pennsylvanian.
    I'm also very honored to have received the very kind 
remarks of a very good friend and supporter, Senator Barbara 
Mikulski. She's taken both me and the Agency, the National 
Security Agency, under her wing and she's a true supporter of 
intelligence and the job it does to protect the Nation.
    It's clearly a privilege for me to be nominated by the 
President to be the first Principal Deputy Director of National 
Intelligence. Frankly, it's a little bit daunting. I know a lot 
of people who will be depending on us--myself, the Ambassador 
and the rest of the team--to do well in tough circumstances.
    Senator Rockefeller, my brother Harry thought that this was 
so important that on the day of the President's announcement he 
took his delivery truck into a truck stop on I-79 in 
Morgantown. He had to drop a $10 tip on a cup of coffee to get 
the waitress to turn off ESPN in favor of CSPAN. At the end of 
that, though, after the announcement, she watched it with him, 
and told him to wish me good luck.
    A day after the announcement, I got an e-mail from a 
boyhood friend, a fellow with whom I was inseparable until he 
moved away from the neighborhood when we were in the sixth 
grade. We lived on the flood plain of the Allegheny River on 
Pittsburgh's north side, a district called the Ward right 
between Heinz Field and PNC park today.
    My friend wrote in his e-mail, and I'm quoting him now,

          ``The Ward, the street parties, the picnics, Clark candy bars 
        and Teaberry gum thrown out the fifth floor windows to kids 
        cheering on the street, and the damp train trestle on the way 
        to and from school are the things that you are made of. You 
        will never get too far from them. It's those things that you'll 
        be protecting.''

    No disrespect to the Committee, but I think it's going to 
be hard for you to put more pressure on me than Jimmy Heffley 
did with his e- mail to me.
    Ambassador Negroponte appeared before you earlier this 
week, and he made clear the importance of U.S. intelligence. 
This Committee already knows full well the challenges being 
faced by American intelligence, and I won't try to catalogue 
them all here.
    So we find ourselves as a community in a very interesting 
place--never more challenged by the world in which we find 
ourselves and never more important to the safety of the 
republic we're committed to defend.
    We seem to be surrounded by dilemmas. We want more 
cohesion. We want a better sense of direction throughout our 
community. In fact, the WMD commission said that we were a 
community in name only.
    We don't want so much centralization that it leads to group 
think or a herd mentality when it comes to analysis. We need to 
aggressively develop more effective ways to connect the dots, 
even when there may not be so many dots and those that exist 
may be hidden in the noise. But we should also not base our 
analysis on past context alone or mere inertia or isolated data 
points.
    We want to strengthen the center of the community, give the 
DNI real power--certainly more power than we ever gave the 
DCI--but we're also to preserve the chain of command.
    We all know that the enemy may be inside the gates and that 
job one is to defend the homeland. But we're also to ensure the 
privacy rights of our citizens and closely control any things 
like data search tools that we might have. I could go on, but 
you get the picture. It's going to be very hard work.
    When I testified before the House Intelligence Committee 
last August, I said that the American intelligence community 
had been governed by the principle of consensus for almost half 
a century. It wasn't actually a bad principle for most of that 
time. It gave us buy-in. It balanced competing needs and 
priorities. It gave us stability.
    Now, as an airman, I know the value of stability when you 
design an aircraft. In many aircraft, stability is an absolute 
virtue. Now, when I talk about this in larger audiences, I 
usually ask the audience what they think the opposite of 
stability is. Their response is usually very predictable. They 
say, instability.
    In fact, that's not true. When it comes to designing an 
aircraft, the opposite of stability is maneuverability, and 
maneuverability is a virtue, just like stability. The IC needs 
more maneuverability. But I think we've all decided as a Nation 
it's hard to make sharp turns by consensus. Consensus is rarely 
bold and many times it's just wrong.
    So last summer when the 9/11 Commission reported, in 
August, when the President announced his support for a DNI, and 
this fall when you enacted intelligence reform legislation, it 
was clear to me that we were dampening the principle of 
consensus in favor more clear lines of authority and 
responsibility when it comes to running the American 
intelligence community.
    I told the House in August that if we went down this path, 
three major principles would have to apply.
    First, if we're going to go ahead and dismantle the DCI and 
the informal authority he exercised--because he also headed up 
CIA--then we would have to be very sure that we've aggressively 
codified the authorities we wanted the new Director of National 
Intelligence to have.
    Second, I told the House Committee, the new DNI would need 
robust authority over those big, muscular national collection 
agencies, like NSA and NGA and CIA's Directorate of Operations. 
In terms of collection, you want unity of effort and economies 
of scale.
    Third, I said, this new structure would have to accommodate 
the needs of America's combat forces, needs that daily seem to 
redefine standards for relevance and timeliness.
    I personally believe that the legislation signed by the 
President gives us a solid framework within which to build for 
each of those principles. The office of the DNI has real 
authority to task both the collection and analysis of 
intelligence. The DNI has more authority over the budget than 
was ever exercised by the DCI. The DNI has policy, security, 
information-sharing and personnel tools that never before 
existed in one place.
    I was careful to describe the legislation as providing a 
framework. In each of these areas, the powers of the DNI will 
have to be built by what I have called case law--the concrete 
use of his new authorities early and often and in actual 
circumstances.
    I'll do my role, should I be confirmed, to support 
Ambassador Negroponte in this effort. He brings a wonderful 
personal history of service to this task along with years of 
government and policy experience.
    I believe I was chosen by the President because he thought 
I knew the neighborhood. I pledge that I'll use that knowledge 
to support the Ambassador in this effort.
    For the first time in the history of our community--and I 
think this is the big difference--for the first time, this 
legislation has made governing our intelligence community 
someone's full-time job. That's a fundamental difference. We're 
not without tools beyond the legislation itself. In my 6 years 
at NSA, I've learned just how talented a workforce we have 
there, a workforce that represents the kind of people we have 
throughout the intelligence community. I've often said that the 
real power of NSA goes down in the elevators tonight.
    In fact, when asked recently to summarize in one phrase 
whatever success we had at the Agency, I responded that I had 
simply empowered our people, and our success has come from 
their empowerment. That can apply across the community.
    The Ambassador and I are also blessed with the support of 
you--with the support of Congress. During the debate on the 
intelligence reform bill, I was personally impressed with the 
passion with which so many Members regarded this subject. In 
preparing for these hearings, I've met with many more Members 
who showed deep interest in the specifics of the statute and in 
its implementation. More than one Member has publicly told us 
to--I'm quoting here now--``be in charge.'' We've also been 
urged to exercise clear, even charismatic leadership.
    Finally, beyond Congress, we have the strong support of the 
President. His words on the morning when he announced 
Ambassador Negroponte's and my appointments were quite 
specific: The DNI will set the budgets. The DNI will have 
access to the President.
    I have no illusions about the weeks and months ahead. We 
have to set up an office, build an organization, hire the right 
kind of people--and I should add, from inside and outside of 
government--and begin to make some tough decisions.
    We have to exercise the power that you and the President 
have given us without creating a new layer of bureaucracy. We 
have to be authoritative, and we have to be right. The DNI must 
ensure that we have the information dominance to protect 
America, its people, its values and its friends.
    Now, I know this Committee will remain very interested in 
our work. In fact, I know that several reports are due almost 
imminently from the original legislation.
    I look forward to working with the Committee in the days 
ahead. Now, Mr. Chairman, I look forward to your questions.
    Thank you.
    Chairman Roberts. General, we thank you for your very fine 
statement.
    The Committee will now proceed to questions. Each Member 
will be recognized by the order of their arrival. Each Member 
will be granted 7 minutes and, if necessary, we will have a 
second round.
    General, in terms of cooperation with Committee, do you 
agree to appear before the Committee here or in other venues 
when invited?
    General Hayden. Yes, sir.
    Chairman Roberts. Do you agree to send intelligence 
community officials to appear before the Committee and 
designated staff when invited?
    General Hayden. Yes, sir.
    Chairman Roberts. Do you agree to provide documents or any 
material requested by the Committee in order for it to carry 
out its oversight and its legislative responsibilities?
    General Hayden. Yes, sir.
    Chairman Roberts. Will you ensure that all intelligence 
community elements provide such material to the Committee when 
requested?
    General Hayden. Yes, sir.
    Chairman Roberts. In your pre-hearing answers, you 
indicated that you would recommend to the DNI that he quicken 
the pace of increasing information access. Both the Vice 
Chairman and I have talked to that at length, and you as well.
    What do you think specifically should be done in this area?
    General Hayden. Senator, we've thought a lot about this at 
NSA. You mentioned we would be big a player--NSA would be a big 
player in this. You were very kind by not mentioning that from 
time to time NSA's been pretty conservative about the sharing 
of information.
    Chairman Roberts. Well, actually, that's my No. 3 question, 
but you go ahead.
    [Laughter.]
    General Hayden. But we've done a lot of thinking about this 
and a lot of acting on it in the last 2 to 3 years.
    Let me give you a sense as to how I think we ought to think 
about it now as a community. Frankly, I don't think it's a 
question of sources and methods. We know how to do that, in 
terms of protection. Even in terms of signals intelligence, 
which has a lot of privacy sensitivities related to it, I 
actually think we can protect U.S. person privacy. So I don't 
think that's an unsurmountable obstacle at all.
    We've got challenges with just raw IT--just wiring up the 
system. We can overcome that, as well.
    I think the fundamental issue is to move out of a mindset 
in which each of our collection agencies wanted to hold on to 
information until they had perfected it. By the way, that's a 
virtue, that's not a vice. That's not a sin. The folks at NSA--
I'll speak of them because I know them best--would get an 
intercept and they would want to squeeze the last ounce of 
value out of it, because they knew they were the best in the 
world at doing that, before they attempted to share it with 
other parts of the community.
    We've become very accustomed at sharing information at what 
I'll call the product level. What we've done at NSA in the last 
2 to 3 years is to change that and to begin to share 
information not when we're done with it, but at the earliest 
point of consumability by others.
    Now, on one's ever asked me for the beeps and squeaks, for 
unprocessed information. No one's ever asked me for an 
intercept that has not yet been decrypted. But what we're 
moving to is a point where, at the point in which that 
information can be consumed by another, that other needs to 
have access, data access, as you described, to that 
information.
    Let me go one step further and define consumability.
    I would define consumability as the point in which that 
information is already of operational value to someone else or 
someone else has adequate skills to add their own value to it. 
That adjective ``adequate'' is very important, because in most 
cases, again speaking of SIGINT, their skills at adding value 
probably won't match that of NSA.
    Our new role at the agency is earliest point of 
consumability, consumbability defined as the point at which no 
more value needs to be added for that to be useful or the 
consumer is adequately competent to add their own value. That's 
the kind of approach that I would urge.
    One additional caution, Senator. You just can't throw open 
the doors and make the information created by the collection 
agencies look a lot like Home Depot, where people get to roll 
the cart through and take what they want, otherwise we'll wind 
up looking like 6-year-olds playing soccer--we'll all be around 
the ball.
    We can do a lot more in terms of data access, as you and 
Senator Rockefeller have already emphasized.
    Chairman Roberts. On independent cost estimates, General, 
Agency cost estimates for procuring major systems such as 
satellites routinely fall far below the actual cost of 
procuring those systems.
    To solve this problem, Congress enacted a law requiring 
that independent cost estimates be performed for all 
intelligence community programs costing more than $500 million. 
It also requires that the President budget to these independent 
cost estimates. It's our understanding that only 12 of the 16 
programs for which independent cost estimates have been 
completed are funded at required levels for fiscal year 2006.
    Will you commit to full compliance with the requirements of 
this provision?
    General Hayden. I will, Senator, and I will tell you we've 
had personal experience with this with some major programs at 
NSA. There indeed have been deltas between our estimate and 
what the ICEs, the independent cost estimates, have come up 
with.
    Chairman Roberts. According to the independent cost 
estimates that have been completed, the fiscal year 2006 budget 
request is substantially underfunded. This means that work that 
should be done in fiscal year 2006 will have to be deferred to 
future years, which in turn means that program costs will 
escalate, and the budgeting shortfall for major acquisitions 
across the future years defense plan grows into the multiple 
billions of dollars.
    How would you recommend the DNI close these spending gaps? 
What's your advice to the DNI?
    General Hayden. Well, as you have already suggested, 
Senator, the first thing, even with the 2006 budget that's 
already on the Hill, is take a quick, firm look to see if any 
adjustments need to be made in that.
    He will have the opportunity to have a firm hand on the 
2007 program build and, frankly, although we're still getting 
oriented ourselves in our discussion of the budget, it is the 
2007 program that we view as the one that we can most 
immediately put the DNI's stamp on.
    The legislation gives the DNI, again, as I said earlier, 
authority that's never been in one place before. The milestone 
decision authority, for example, that legislation gives to the 
DNI, was scattered throughout the community prior to the 
legislation. That's a powerful tool and one that I think we 
will use.
    Chairman Roberts. I have a question on that later. My time 
has expired. I have two questions, so on the second round I 
will ask those questions.
    I now recognize the Vice Chairman.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    General Hayden, as I indicated, you start from a very deep 
basis of knowledge about the intelligence community. That is 
one of the reasons why I think the two of you are going to be 
very strong.
    I have to assume, therefore, that you've given yourself--
just in thinking out loud with yourself and some of your 
colleagues, as well as, I understand, you've have a number of 
conversations with Ambassador Negroponte about how the office 
of the DNI should be organized.
    Now, you will have, I believe, four other deputies. So 
there's a lot of flexibility, as there should be, in the way 
that this DNI team can be set up. I'd be interested in, to 
whatever extent you feel comfortable, getting some of your 
thoughts about that--a balance of skills.
    General Hayden. Again, as you say, this is all very 
preliminary. We've had broad discussions about it. I'd offer 
the view that whatever I say to you this morning isn't even in 
pencil. To the degree that it's down anywhere, it's in chalk. 
So it's a very, very light hand.
    Rather than talk about the specific boxes and the titles, I 
think I'd be a little more comfortable talking about the broad 
functions I think we need to tend to. You're right, the law 
gives us four. You're also right, the law gives us great 
flexibility. It doesn't identify what those four will be--and 
that's a real blessing. So thank you for that.
    I would lay out maybe four or five broad, general areas and 
then we're going to have to figure out exactly how to fit them 
in the structure.
    One, in terms of operations, I would work it back from 
something I'll call, for our purposes of this morning, customer 
outcomes. You want to empower someone to tend to outcomes 
rather than your own inputs, rather than just the performance 
of this community. What's the impact of this community on those 
we are designed to serve? So I would think we'd have to tend to 
something, like I said, that I'll call customer outcomes.
    To create those outcomes, the next step I would describe is 
analysis. Then collection. I personally kind of wrestled with 
the thought, do I want to put analysis and collection together 
and just create, maybe, a J-3 as a director of operations?
    Frankly, I think the management style--and again, I'm 
speaking personally now--the management style you want over 
collection is a bit different than the one you want over 
analysis. Just give me a sentence or two to explain.
    With regard to collection, you want economies of scale, and 
you want unity of effort. You want efficiencies. You don't want 
that with analysis. You want competition. You want some things 
that a management specialist might actually call redundancy 
when it comes to analysis. You want a less firm hand as you 
allow the community to create alternative views.
    So, in NSA parlance, we would have called those three 
functions I just described to you as: Get it, know it and use 
it.
    Then I would suggest a fourth broad function. It would be 
build it. Those are the management functions that you've put 
into the law. You've grouped together, for the DNI, H.R. 
training, acquisition, programs, budgets. I think that's 
another broad area that has to be tended to.
    Then the fifth one I would offer--and again I realize there 
are four big boxes to work with--the fifth one I would offer is 
the one that is encompassed when the legislation said there 
should be a CIO, a chief information officer. My sense is 
that's far more than a senior, a secretary, a desk and a phone, 
that you want the CIO to be an empowered player, because so 
much of what it is you've tasked us to do deals with 
information. I would broadly picture the CIO taking care of the 
wiring, the IT. But beyond that as well.
    My sense is I would want him to have a powerful voice in 
both security and sharing so that you don't kind of get the 
``He said, she said'' dilemma when it comes to how you want to 
deal with information access.
    So those are the broad areas, Senator, I think. We want to 
make sure whatever organization chart we finally come up with, 
all those things are well handled.
    Vice Chairman Rockefeller. You mentioned that competition 
can be good--if not in collection, then certainly in analysis.
    One of the things that I helped get into the intelligence 
reform bill had to do with red-teaming, and that's contrary 
views. It was watered down when it finally arrived and was 
signed.
    I'm interested--and I think that you've done this at the 
NSA--in how you view the importance of formalizing that 
contrarian or sort of opposing analytical views, competition.
    General Hayden. You're right. We've done some things along 
these lines. Even in a collection agency like NSA, we really do 
empower some contrarians, not just to be contrary, but to raise 
questions like, well, have you ever looked at it this way, and 
to kind of pull your center of gravity of analysis maybe 20 or 
30 degrees off to the side--and now things begin to look a 
little bit differently.
    It's something that I believe in. I believe the Ambassador 
believes in that and I think you'll be pleased with the degree 
to which we are creative within that analytic box that the law 
lays out for us.
    Vice Chairman Rockefeller. Thank you.
    Chairman Roberts. Senator Mikulski.
    Vice Chairman Rockefeller. She's not here.
    Chairman Roberts. I beg your pardon.
    Senator DeWine.
    Senator DeWine. No questions, Mr. Chairman.
    Chairman Roberts. I like your style.
    Senator DeWine. Yes, sir.
    Chairman Roberts. Senator Levin is not here.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    General, I believe it's safe to say that you're very widely 
respected and it would be hard for me to see that your 
confirmation is going to be anything but unanimous. I hope that 
enables you to see that you go in with a tremendous vote of 
confidence by all of us, which I think is important.
    I'd like to ask you this question. Ambassador Negroponte, 
by virtue of the fact of where he's been, was necessarily 
somewhat vague in the answers to some of the questions. I 
understand that.
    You, on the other hand, have been here, have been in very 
high levels for a substantial period of time and have had an 
opportunity to see the overview of the intelligence community 
of this Nation.
    What do you believe--and I said, ``what'' rather than 
``who''--what do you believe is responsible for the enormous 
failures of intelligence surrounding Iraq and weapons of mass 
destruction?
    General Hayden. Ma'am, that's a very difficult question and 
it's one that I've personally looked into. After the war and 
after the evidentiary trail began to play out the way it did, I 
brought our folks in, NSA folks.
    As you well know, these aren't the final analysts. They 
don't put it all together. They look at the SIGINT and deal 
with that--honest people, very hardworking people, incredibly 
conscientious people, and I think that applies across the 
board.
    I asked them questions: How confident were you on the 
morning of 19 March with the Nation going to war? I said, put 
everything outside of your mind. Not that he was a bad man. 
It's just WMD. Where were you, in your heart, on a scale of 1 
to 10? Without betraying their privacy, I got some pretty high 
numbers. They had confidence.
    We dug down deeper into that. Again, I'm kind of speaking 
from NSA experience but that's what I've had. It's very clear. 
It was clear to them, in fact it was clear to me before the 
war, that we had a mountain of evidence about WMD from which 
the community drew conclusions--but that the mountain was 
essentially inferential.
    Senator Feinstein. I don't understand what you mean by 
inferential.
    General Hayden. No smoking gun. No smoking gun. It was 
indirect. It was oblique. It was dual-use chemicals. It was 
dual-use equipment. It was suspicious equipment bought in a 
very suspicious way.
    How does a SIGINT analyst decide whether that's done to 
bust sanctions, to keep it secret from the rest of the Iraqi 
government, or to acquire precursor chemicals for weapons of 
mass destruction.
    I think what happened, in each of our disciplines, people 
became expert in the information that their discipline provided 
and yet we didn't have a view into the trail of evidence in the 
other disciplines.
    I'll speak personally. I'm at the NFIB. I'm at the National 
Foreign Intelligence Board. I raise my hand. I vote on the NIE. 
We had discussions, and you well know from the Committee's 
investigations, the discussions were spirited.
    Frankly, I went in there carrying a brief, carrying a 
portfolio for the signals intelligence. There was nothing in 
that NIE that signals intelligence contradicted. Signals 
intelligence ranged from ambiguous to confirmatory of the 
conclusions in the National Intelligence Estimate.
    Now, if you take my attitude and my view of that and you 
spread it around the room with every piece of the community 
looking at their piece, you begin to get a sense of some 
segmentation, some fragmentation and the difficulty of getting 
a holistic view.
    We've taken some big strides to fix that. Before I go to a 
meeting now of the National Foreign Intelligence Board, I have 
to sit and read pages of, for example, CIA/DO information on 
their evaluation of their sources that contributed to each of 
the conclusions of the Estimate.
    So I would put the fault at we had a process that wasn't 
good enough. We had a process that didn't allow the right 
wholeness of view, a holistic view. We ended up where we were.
    Senator Feinstein. I still have a minute or so. Thank you.
    The DNI has been given milestone decision authority over 
all programs in the NIP, to be jointly exercised with the 
Secretary of Defense for programs in DOD. As someone with a 
long experience with major program acquisition and as, in 
effect, the chief operating officer of the intelligence 
community, how will you work with the Director to gain control 
over cost and time overruns?
    General Hayden. As I alluded to in an earlier question, I 
actually think this is one of the kind of the hidden powers in 
the law. It's just a small section.
    Believe me, the Senate, in its wisdom, took the milestone 
decision authority of NSA away from us about 2 years ago. It's 
a difference. It makes a big difference. They put it in the 
Department of Defense and we've worked with Secretary Wynne in 
terms of our MDA.
    We worked very productively with him, I might add, by the 
way. But the absence of that authority on the desktop of the 
Director of NSA, that gets noticed very quickly.
    It's something I would strongly recommend to the DNI that 
he--we--hire the professional staff competent to fully make use 
of that authority. I think that that's going to be one of the 
key powers that the DNI--the office of the DNI--has.
    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    Chairman Roberts. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Welcome to you, General, and congratulations on this 
appointment.
    Many of us have been frustrated by the lack of 
responsiveness on the part of some parts of the intelligence 
community and some other Federal agencies to Congress when 
there are requests for documents and requests for 
declassification.
    There have been recent problems getting documents on 
subjects ranging from intelligence assessments on Iraq to 
detainee abuse. In one instance, the Armed Services Committee 
waited more than a year to get answers for the record from the 
former DCI. In other instances, the CIA promised to provide 
documents and then failed to do so for up to a year. It's 
simply unacceptable.
    I brought these facts to the attention of the current DCI, 
Porter Goss. He said he would look into it and he'd make sure 
that materials would be provided promptly, and he did what he 
promised.
    In his letter to me of April 6th, this is what he wrote: 
``There is no excuse for such delays. I have conveyed to my 
staff that this is not how the agency will treat requests.'' I 
commend him for that letter and for his prompt response.
    It's a standard that I hope the entire intelligence 
community will adhere to. I want to know whether or not, if you 
are confirmed, whether you will commit to ensuring, to the best 
of your ability, timely and responsive information to the 
Members of this Committee, and will you make every effort to 
respond to requests for existing documents within weeks not 
months?
    General Hayden. Yes, sir. I fully support that. I actually 
think NSA's got a decent track record in trying to turn those 
kind of requests for information around.
    I know there are legal procedures that have to be respected 
and who on the Committee is briefed and so on, but outside of 
that, I don't see what the excuse would be for delaying the 
responses.
    Senator Levin. General, I thank you for that.
    A year and a half ago, the Defense Authorization Act 
removed final milestone decision activity from major 
acquisition programs from the Director of NSA, which is your 
current position, and vested that authority in the Under 
Secretary of Defense for Acquisition, Technology and Logistics. 
Now, in your new position, they give you something of a 
different perspective on that shift.
    Can you tell us how has that worked out?
    General Hayden. Frankly, we were surprised when the 
Congress made the decision. Acting like most large 
organizations do when a piece of power is pulled away from 
them, we objected and marshalled arguments as to why we opposed 
that. Frankly, I think we had some good arguments at the time.
    It adds a burden of paperwork. I will tell you that, 
without argument, you're staking up a lot of documents and a 
lot of three-ring binders in order to get a decision. But that 
costs in flexibility.
    That said, Secretary Wynne, who exercised MDA over us, 
could not have been more wonderful in how he did it. He did it 
in a very, very cooperative spirit. Frankly, we've learned, as 
an agency, from some of the things that he's pointed out to us.
    I would like that experience to be the model for what the 
Office of the DNI now must do with milestone decision authority 
for the community, so that that MDA power isn't a burden to 
each of the agencies, that in fact it is an enabler.
    That's going to require talent. We're going to have to have 
some very good people on our staff.
    Senator Levin. Thank you.
    General, this morning's New York Times had an article which 
troubled me, about the number of times in which communications 
that had been intercepted by the NSA were released to John 
Bolton. I was troubled by the number of times that this 
happened, frankly. But since you're here and you're in a 
position to give us some facts on this subject, I want to ask 
you a number of questions about it.
    I gather that, according to the article, access to names 
may be authorized by NSA only in response to special requests, 
and these are not common, particularly from policymakers. 
That's the quote in there. Is that an accurate statement?
    General Hayden. I think that's a very accurate description. 
In fact, I read Doug Jehl's article. I think Doug laid it out 
in a very clear way.
    The way it works, Senator, is that we are required to 
determine what is minimized U.S. person identity. Now, there is 
a whole body of law with regard to protecting U.S. privacy. But 
in an agency like ourselves, it is not uncommon for us to come 
across information to, from or about what we would call a 
protected person--a U.S. person. Then the rules kick in as to 
what you can do with that information.
    The rule of thumb in almost all cases is that you minimize 
it, and you simply refer to ``named U.S. person'' or ``named 
U.S. official'' in the report that goes out.
    Senator Levin. How often did Mr. Bolton request the names?
    General Hayden. I don't know.
    Senator Levin. Do you have a record of that?
    General Hayden. We would have a record of it. Interestingly 
enough, I double-checked this this morning after reading the 
article just to make sure I had this right. Because I do 
approve, from time to time, the release of U.S. person 
identity. It's not very often. I have to do it when the 
identity is released to a U.S. law enforcement agency. If it's 
just done for foreign intelligence purposes, it's about three 
layers below me in the NSA org chart.
    Senator Levin. Was there an unusual number of accesses 
requested by Mr. Bolton compared to requests from other senior 
officials?
    General Hayden. I don't know that, Senator, I really don't. 
The requests from Secretary Bolton were not of such a number 
that they came to my attention.
    Senator Levin. In other words, he obviously made requests. 
You say that someone other than you would have approved those.
    General Hayden. On a normal basis; that's right.
    Senator Levin. But you do have records as to how often?
    General Hayden. Yes, sir, we would.
    Senator Levin. Thank you.
    General Hayden. I should add that's a formal process. 
That's just not a phone call.
    Senator Levin. OK, thank you.
    General Hayden. It's documented.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Levin, I wanted to let you know 
that in answer to the No. 3 question that I asked and the 
general replied in terms of cooperating with the Committee--do 
you agree to provide documents or any material requested by the 
Committee in order for it to carry out its oversight and its 
legislative responsibilities--we didn't put a timeframe on it, 
but you have. His answer was an emphatic yes.
    Senator Levin. I appreciate that, Mr. Chairman. Thank you.
    Chairman Roberts. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    General, welcome.
    General Hayden. Thank you.
    Senator Wyden. General, on your watch, the National 
Security Agency implemented a program called Trailblazer to 
modernize its information technology infrastructure. My 
understanding is that there were serious cost overruns with 
this program and that there were significant slippages in terms 
of the program.
    I'd like you to tell me when you became aware this was a 
problem and what changes you put in place to root out the 
inefficiencies. I also think that that may be one of the 
reasons for the transfer of authority that colleagues have been 
talking about.
    So if you would, take us through what happened here, when 
you found out about it, and what you did to turn the situation 
around.
    General Hayden. Sure, Senator.
    If you look at the things we do at the agency, Trailblazer 
is essentially about how we manage the vast volumes of data 
that our collection systems can bring to our attention. We've 
had pretty good success with the front-end in terms of 
collection. I'm going to just leave it at that in open session.
    The more success you have with regard to collection, the 
more you're swimming in an ocean of data. So what Trailblazer 
was essentially designed to do was to help us deal with masses 
of information and to turn it into usable things for American 
decisionmakers.
    There is no other element out there in American society 
that is dealing with volumes of data in this dimension. I had 
several leaders of industry in and described our situation to 
these leaders, very well-known folks in the American IT and 
computing industry. I kind of, after describing our needs, kind 
of got a whistle from them, saying, whoa, that's bigger than 
anything we do. So it was quite a challenge.
    We made the strategic decision, and, frankly, with the 
support of both the SSCI and the HPSCI--and I think correctly--
made the strategic decision that we had to get out of the mode 
of building these things ourselves. We were America's 
information age organization during America's industrial age. 
We're no longer in America's industrial age. We could go 
outside and engage industry in doing this.
    A personal view, now--looking back--we overachieved. We 
defined our relationship with industry as simply the definition 
of our requirements and then expect industry to come back and 
deliver something. We learned within Trailblazer that when we 
asked industry for something they had or something close to 
what they already had, they were remarkable in providing us a 
response, an outcome. When we asked them for something that no 
one had yet invented, they weren't any better at inventing it 
than we were doing it ourselves.
    Let me give you a summary statement that I actually gave 
our senior leadership yesterday. In fact, we had a conference 
and I wanted to say a few things before the hearing today. I 
focused on Trailblazer and related things.
    I would say it's about 60-40, that 60 percent of the 
difficulty in the program was just the raw difficulty of the 
challenge.
    Senator Wyden. How big were the costs overrun?
    General Hayden. I'll take that for the record and give you 
exact numbers as to how the costs----
    Senator Wyden. Give me a general sense.
    General Hayden. The costs were greater than anticipated, to 
the tune of, I would say, in the hundreds of millions.
    Senator Wyden. Pardon me, General. I only want you to go 
into matters that can be discussed in open session.
    General Hayden. Right, I understand.
    The slippages were actually more dramatic than the costs. 
As we slipped, the costs were pushed to the right. But I would 
say we underestimated the costs by, I would say, a couple to 
several hundred million in terms of the costs. Again, it was 
what we actually encountered doing this. It was just far more 
difficult than anyone anticipated.
    Senator Wyden. So the learning experience says that when 
you work with the private sector, you've got to change your 
relationship.
    General Hayden. To a far more cooperative one, that there's 
a middle ground between doing it ourselves and just exporting 
the problem.
    The other thing I'd add that we learned, Senator, is that 
we don't profit by trying to do moon shots, by trying to take 
the great leap forward, that we can do a lot better with 
incremental improvement, spiral development. That's where we 
are now with the program.
    Senator Wyden. Let me ask you about one other area, if I 
might, General. I feel very strongly that it is possible to 
fight terrorism ferociously without gutting the privacy and 
civil rights of our citizens. What would you do as a Principal 
Deputy at the DNI to protect the privacy rights of all 
Americans?
    General Hayden. I would ensure that our collection is--all 
of our activities--is absolutely in compliance with all U.S. 
law and the Constitution.
    I would also suggest, Senator, that you should expect of me 
that I'm right up to that line, that we're not pulling punches, 
that we're using all of the authorities that Congress has given 
to us in the law.
    Senator Wyden. What measures did you take as the Director 
at NSA to address privacy issues? This is as much to get a bit 
of your history in terms of dealing with the issue as looking 
forward.
    General Hayden. We are, I would offer, the most aggressive 
agency in the intelligence community when it comes to 
protecting U.S. privacy. Part of that is virtue, but part of 
that's the nature of our work. We just have to be that way.
    I would suggest to you, Senator, that culturally, 
culturally, it's more difficult to get NSA-ers to go up to the 
full force of their authorities than it is to prevent them from 
going over the line.
    Senator Wyden. Let me see if I can ask one other one. Like 
Senator Rockefeller, I have a great interest in technology. I'm 
concerned that we have lagged behind technologically. What 
would you do in this position to get the intelligence community 
out front in terms of technology rather than lagging behind?
    General Hayden. A couple of things seem obvious. 
Rationalizing, organizing, making communal the various 
technology efforts that are now being undertaken in each of the 
different intelligence agencies, because of, not in spite of, 
but because of NSA's experience with the private sector, 
aggressively engage the private sector in the solution of these 
problems.
    Senator Wyden. I intend to support you, General. I look 
forward to working with you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    With the acknowledgement of Senator Snowe, who is next, 
Senator Hatch has requested that he make a brief statement, in 
that he has a conflict. So I will, with the permission of 
Senator Snowe, recognize Senator Hatch.

            OPENING STATEMENT OF HON. ORRIN G. HATCH

    Senator Hatch. I will only take a minute. I just want to 
personally express my gratitude for your service in the past 
and for your willingness to take on this daunting job and for 
your ability to be able to inspire and bring other people 
together to do the work that really has to be done and for the 
softness that you have but the toughness that you have as well.
    Anybody who has graduated with a bachelor's and a master's 
degree from Duquesne University, I'm for. I just want you to 
know that. I used to play against some of their all-Americans. 
They were always tough. A lot of my colleagues and partners 
were law graduates from Duquesne University.
    I just wanted to say how much I admire you. I'm grateful 
for this service. I'm not going to ask any questions.
    I appreciate my dear colleague from Maine allowing me to 
just make these comments, so I can go on to another meeting.
    General Hayden. Thank you, Senator.
    Senator Hatch. Thank you, sir.
    Chairman Roberts. Senator Snowe.

           OPENING STATEMENT OF HON. OLYMPIA J. SNOWE

    Senator Snowe. Thank you, Mr. Chairman.
    I too want to welcome you before the Committee, General 
Hayden--most importantly that we will have the benefit and the 
good fortune of your talent and experience to this position as 
Deputy Director of the National Intelligence Agency. We really 
appreciate the fact that you will be there.
    Let me just ask you several questions that I think are 
certainly going to be important to your mission and to that of 
Ambassador Negroponte's.
    One obviously that has been identified in the aftermath of 
9/11 with the 9/11 Commission and, of course, our report and 
the Weapons of Mass Destruction Commission report, as well, the 
failure to share information, rightly known as information 
access at this point, which are one of the things that we 
regrettably and tragically learned in the aftermath of 9/11. 
They weren't connecting the dots, not sharing the information.
    A lesson wasn't learned at that point. We then discovered 
in the prewar assessments that there was a failure to share 
information that led to very different and profoundly different 
assessments.
    That was certainly true in the biological weapons program. 
Had all the analysts known about the credibility of Curveball, 
for example, or the information regarding the UAVs, and the 
failure to share this information, not only within an agency, 
but across the intelligence community agency.
    This is a fundamental failure that obviously is going to 
need to be addressed. I would just wonder about your thoughts 
and perspective in terms of how you think the community has to 
be restructured so this failure never repeats itself again.
    General Hayden. Yes, Senator. I actually think in many ways 
we're fairly well down the road. I think what the Ambassador 
and I would need to do is to kind of reinforce whatever 
successes we've had, to continue along the trajectory that 
we're already on.
    In terms of sources, for example, I mentioned earlier, to 
respond to a question, when we come to look at an NIE, a 
National Intelligence Estimate, I've got far more visibility 
into everyone else's sources and their evaluation of those 
sources than I ever had a year or two back.
    There are some cultural things. We'll have to deal with 
that--some reluctances--not bad people, maybe just old habits.
    There are some sources and methods things, but I've already 
suggested we can work through that. There are some IT things. 
That's nontrivial. It's going to take some time.
    I think, as you know, we're pretty well wired north-south 
inside of our organizations. There's not much plumbing left and 
right, east-west. We're going to have to take care of that. 
That's actually an aspect of an office of the DNI, who's 
charged with looking across the community, would naturally look 
at.
    I don't naturally look at that as head of NSA. So there's 
an advantage in the legislation and in the structure.
    Finally--and this is more of an existential problem than it 
is a cultural or an IT problem--the existential problem is 
this. How do you give enough people enough access to the 
information without not creating a symphony but creating a 
cacophony?
    Again, I'll speak from an NSA experience. People want 
access to and the usual catch phrase for us is ``raw 
traffic''--and they'll pound the table about that with me until 
we open up the access to raw traffic and they discover it's all 
in Arabic. At that point, you're not in a cultural question; 
you're in an existential question. What is the ability of that 
consumer to consume information that raw?
    That's where we are now. I really think so. I need to be 
careful. That's where we are intellectually. Intellectually, 
all those other impediments I described for you, they're in our 
rear view mirror. There's practically a lot of work to be done.
    Intellectually, now, we're at the question, how do you make 
that much information available to people who aren't as well 
schooled--in this case, knowing Arabic--as the people who have 
traditionally looked at it? That's the hard part right now. 
That's where we are.
    Senator Snowe. You think that, organizationally and 
procedurally, you're in a much better position to be able to 
make these cross-agency changes?
    General Hayden. I would say that the trend line, even 
without the DNI, is positive, although no one would be enthused 
about the speed or the pace. With the DNI and with that both 
structural view across the community and then some of the 
powers that you put into the law, I would expect us to be able 
to accelerate.
    Senator Snowe. Turf battles, another area that has been 
identified, even most recently by the Weapons of Mass 
Destruction Commission's report, the Silberman-Robb report, 
that underscored, again, that the counterterrorism threats and 
analyses have to be thoroughly integrated if we're going to 
counter any terrorism threat.
    On the other hand, we're seeing numerous redundancies and 
duplication among the agencies. As you know, we've created a 
National Counterterrorism Center to replace the Terrorist 
Threat Integration Center.
    I was thinking about it the other day. The President first 
indicated it was a major goal in the State of the Union address 
and that was in January, 2003. They wanted to create the 
Terrorist Threat Integration Center.
    It seems like--it's been 2 years since the President issued 
that mandate--that we still have considerable problems with the 
redundancy and duplication, and the resistance to, again, to 
working together across agency lines, between the National 
Counterterrorism Center and the DCI Counterterrorism Office.
    So I was wondering, what do you think needs to be done to 
clarify and define the missions of these respective offices so 
that we can avoid this duplication as well?
    I mean, the President of the United States can issue a 
mandate and issue a directive, and 2 years later we're still 
fighting the same old turf battles. How do you think that we 
need to define these authorities to make sure that this doesn't 
continue?
    General Hayden. Yes, ma'am. First of all, I take the point 
about the NCTC and what's been done there, and I think you know 
John Brennan has been very aggressive in establishing the 
center, not without, as you suggest, some issues.
    Senator Snowe. Well, in fact, he had most recently asked--
he had some detailees assigned to the center, and not without 
difficulty.
    General Hayden. Right. But John, I think, has the right 
sight picture as you've described. I know of the President 
giving the overall direction, as he should.
    What perhaps may be lacking is a specificity. The President 
saying, ``Eliminate duplication.'' I'm sorry to even footnote 
my own speech here. One needs to be careful. One wants to build 
a little duplication into some areas, like analysis, so you're 
not just going to one source and so you have competition. But 
overall, you're right. We need to rationalize what the entire 
community is doing.
    The Department of Defense has something called the Unified 
Command Plan. They look at it about every 2 years. It's signed 
by the President. There's no doubt in anyone's mind that the 
U.S.-European Command has these responsibilities or that U.S. 
Transportation Command has these responsibilities.
    We have no similar document within the intelligence 
community. It's an idea that we have discussed very informally, 
very briefly in the last 2 weeks since the Ambassador's been 
back.
    Something like that, an approach like that, where someone 
who has authority for the entire community actually says, 
you're going to do this and you're going to do that. We've not 
done it that clearly before. If we're going to get the 
increased efficiencies you're suggesting we need, something 
like that's going to have to be done.
    Now with the DNI--the DCI could have done that. But keep in 
mind, the DCI's sole job was not running the community. Let me 
suggest to you that even if he had made a decision that was 
infinitely wise, the fact that he was also the head of CIA 
would have presented that decision in a different light to the 
entire community. The DNI doesn't carry that burden.
    Senator Snowe. Thank you very much, General Hayden, again, 
and thank you for your willingness to step forward. I think you 
and Ambassador Negroponte are going to make a great team in 
leading this new position and agency. Thank you.
    General Hayden. Thank you, ma'am.
    Chairman Roberts. Senator Chambliss.

           OPENING STATEMENT OF HON. SAXBY CHAMBLISS

    Senator Chambliss. Thank you, Mr. Chairman. Mr. Chairman, I 
am pleased that the President has seen fit to follow the 
recommendation by a sense of the Senate that we adopted last 
year during our intelligence reform bill that one of the two 
top positions in the new agency be a military officer.
    I also would commend the President on his choice of General 
Mike Hayden to be the Deputy to the DNI. I think, without 
question, General Hayden brings exactly the type of operational 
background and experience to the job, the right kind of 
leadership.
    As I told him the other day when he visited with me, in my 
position on the House Intelligence Committee, following 
September 11, General Hayden contacted me relative to the 
improvement of the capabilities of his office and his agency, 
without having to contact him. That showed the right kind of 
leadership that we need in this very critical time in the 
history of our country.
    So I'm excited by General Hayden's nomination to this 
position. I look forward to supporting him.
    General Hayden. Thank you, sir.
    Senator Chambliss. General, as you know, Senator Ben Nelson 
and I have introduced legislation to create a four-star 
combatant commander which will be titled INTCOM. This 
legislation brings together, for the first time, the DNI and 
military intelligence components from the four services, as 
designated by the Secretary of Defense.
    The three national agencies in DOD, the NSA, NGA and NRO, 
remain directly under the Secretary of Defense, but authorizes 
the Secretary to direct communications between his office and 
these agencies to be transmitted through the INTCOM commander.
    Also, there is no prohibition for the DNI to coordinate 
directly with the national agencies as required.
    Do you see a benefit in creating a unified intelligence 
command to harmonize the intelligence activities being 
conducted by the Army, Navy, Air Force, Marine Corps and DIA? 
If so, can you please share with this Committee some of the 
major benefits that you see from that?
    General Hayden. Yes, sir. I have talked to some members of 
your staff on several occasions and I've read the draft 
legislation.
    Let me caveat my remarks by saying we're still kind of 
shaking out what the DNI structure is going to look like, so 
it's really difficult to now put this new structure into our 
sight and see how it might relate. So anything I would say 
right now would be, of necessity, preliminary.
    I'd offer a couple of views. One is, everyone talks about 
the American intelligence community being comprised of 15 
different agencies. In fact, in my testimony to the House last 
August, I said I wish people would stop saying that. It sounds 
like we have too many men on the field and we should be 
permanently penalized or something.
    Different aspects of that community need to have different 
relationships to the leadership of that community. I would 
offer, for example, that the intelligence activities of the 
military departments--Army, Navy, Air Force and Marines--should 
be very focused on the Department of Defense and the needs of 
DOD and the DOD leadership.
    At the other end of the spectrum, you've got what I 
described in my remarks as those big, muscular collection 
agencies--NSA, NGA, NRO, for example. Although they're in the 
Department of Defense, they're the fighting force for the DNI, 
and his relationship to them has to be direct in terms of what 
it is he can do with them, be it budget or operations or 
anything in between.
    My personal sense--and you and I have talked about this 
briefly--is that to the degree that Defense can package up the 
tactical intelligence activities of the military departments 
and present them in a unified, integrated, coherent way to the 
DNI, that would be a real virtue and something that would be 
very welcome.
    Senator Chambliss. Well, thank you, General. We look 
forward to continuing to dialog with you on that. I look 
forward to your confirmation and your leadership in putting 
this new agency together in the way that it needs to be 
coordinated.
    General Hayden. Thank you, sir.
    Senator Chambliss. Thank you.
    Chairman Roberts. Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    General Hayden, during the evolution of the reform bill 
last year, I proposed the creation of an intelligence 
community-wide ombudsman for politicization, similar to the 
current position at CIA. The final legislation was watered 
down, in fact, so it sort of said that it directed the DNI to 
assign an individual responsibility of performing the function, 
but it didn't necessarily say that that would be full-time. He 
might be doing five or six--or she doing five or six--other 
things.
    I felt very strongly about this after the Committee's Iraq 
review. I feel even more strongly about this, as Carl Levin 
hinted, with respect to certain nomination hearings that are 
going on at the present time.
    Do you think it makes sense to establish an ombudsman 
within the Office of the DNI to counsel analysts and initiate 
inquiries into real or perceived problems of analytical 
tradecraft or politicization, biased reporting, or lack of 
objectivity in the intelligence analysis, No. 1?
    No. 2, how would you react if a senior policymaker--this 
always gets into this question of the creation of intelligence 
and then the use of intelligence--if a senior policymaker 
sought to take retribution? Now that could be in a variety of 
forms. It could be a visit, which didn't imply retribution. It 
could be a follow-up visit if that analyst or particular 
employee had not analyzed or produced in the way which was 
consistent with the policymaker's point of view.
    Again, I ask these questions because we're looking at the 
next 30, 40 years. I think this war on terror is going to go on 
a very long time, and the processes and the cachement areas 
that we put in place now will be effective for a long time.
    So if a senior policymaker sought retribution or to 
directly influence against an intelligence analyst whose 
assessment didn't, obviously, agree with that policymaker's 
point of view, how would you handle that?
    General Hayden. Yes, sir. I know Ambassador Negroponte was 
very clear. I think the phrase he used on Tuesday was to call 
them as he saw them. I think you've already gotten, the 
Committee's gotten, a personal commitment from the Ambassador 
that certainly, I think the term is telling truth to power--the 
emphasis on truth, and he would do that.
    I have that experience in my dialog with him.
    Vice Chairman Rockefeller. Truth to power referred more to 
leveling with the President. This is, I think at a somewhat 
lower level, yes.
    General Hayden. The law does provide for an ombudsman. We 
have included that in our organizational discussions. It is 
something that we're aware of, we intend to do, we intend to 
put into the analytical effort. It's one of the three or four 
pieces that we've kind of cobbled that must be part of 
analysis. So we would do that.
    You have a personal commitment from the Ambassador. You're 
getting one from me right now. I know what my responsibility 
is. It is that I know what the truth is, that I speak the 
truth, and that, at an absolute minimum, anyone in the 
decisionmaking role--be it a military commander or a 
policymaker--knows what my understanding of the truth is.
    I experienced this. You made a reference in your question 
to what would I do. I don't have to make that up. I have 
experienced that.
    The J-2 for U.S. forces in Europe--if you recall, in the 
early 90s, we had an operation called Deny Flight, where we 
were trying to keep all the aircraft in Bosnia on the ground, 
essentially to prevent the Serbs from flying, since they were 
the only ones who had an air force.
    Intelligence would look at all the sources of information 
for a day, and the U.S. military forces would have AWACS and 
fighters and fighter caps flying and so on. On an occasional 
day, we would have a body of evidence that said, you know, 
we've got a little SIGINT here, a little imagery here, a ground 
observer there. Those dots out there suggest they could be 
connected in a way that somebody may have scooted one of those 
Maya trainers at Banj Aluka and conducted a strafing run over 
at Bihach.
    I quickly learned, when we began to brief that, the 
phenomenon that I later identified as the phenomenon of the 
unpleasant fact. When you brief, the unpleasant fact seems to 
have a higher standard of proof than the pleasant fact. This is 
entirely within a military chain of command. We kept reporting 
the truth as we knew it to be, not without some stress.
    I can recall one of my brightest junior officers who 
finally said he had finally discovered what Deny Flight meant: 
The Serbs fly, and we deny it. So this happens a lot. It's part 
of the burden of being an analyst.
    Vice Chairman Rockefeller. It's part of the burden of being 
an analyst, but, if not unlawful, it comes perilously close 
to--a policymaker to walk across that Grand Canyon slender 
bridge, enter the world of intelligence making to insert 
himself or herself into a process.
    General Hayden. Yes, sir. Right, but even the WMD 
Commission, who's come back with a lot of recommendations about 
the intelligence community, things we could do better, talks 
about the need for this dialog between those who make policy 
and those who create intelligence. Although it may be 
susceptible to abuse, the only way to get from here to there is 
to have that dialogue.
    I think the responsibility of an intelligence senior, in my 
case the J-2 at U.S. European Command, now as the Principal 
Deputy DNI, is when that dialog gets out of bounds, if it ever 
were to get out of bounds, you need to throw your body across 
the rails, you need to stop that.
    Vice Chairman Rockefeller. That's good.
    So you would then have, at least as of this point, the 
concept of a full-time person working on that problem?
    General Hayden. Yes, sir. We have talked about the 
function. I don't want to over-promise, Senator. We have talked 
about the function, the importance of that function. We 
understand that. I don't know that we've made any final 
decision.
    Vice Chairman Rockefeller. OK. I'll be watching.
    Thank you very much.
    Chairman Roberts. I was going to ask a question about the 
milestone decision authority. I think that's been covered.
    One of the things that I noted in your comments, you noted 
the passion by which the intelligence reform bill was 
considered, and it was because, obviously, people have very 
strong opinions when it comes to national security and the 
sense of obligation and responsibility within their own 
committees. You do get passionate debate.
    One of the things that we kept hearing--or that I kept 
hearing--was that basically it was pointed out to us--you don't 
have to point it out to the Vice Chairman and myself--that in 
the intelligence community, 80 percent of the funds are used 
for the military and that obviously nobody in the Congress 
would ever want to hinder in any way the lash-up that we need 
and want and hopefully are improving, and I think we are, 
between our intelligence community and the warfighter, and that 
that certainly was not an issue.
    The comments kept coming to me when I was talking to 
various folks in the other body that while we are very much 
aware that the military is the majority user of intelligence, 
that the principal user of intelligence is the President of the 
United States and the National Security Council and, as a 
matter of fact, the Congress of the United States. I wondered 
if you would accept that as a fait accompli statement.
    In conjunction with that, obviously, that either the 
President, National Security Council or Members of Congress 
would do nothing but support in regard to intelligence to the 
warfighter, but that there is a difference between the majority 
user and the principal user of intelligence.
    Would you care to comment?
    General Hayden. Yes, sir, Senator.
    Unless we have serious missteps--and I mean really serious 
missteps--I see nothing in the legislation--and I mean missteps 
in implementation--I see nothing in the legislation that 
condemns us to reducing our ability or willingness to support 
American combat forces.
    I can't go into detail in open session. I know this is a 
fairly impassioned issue. But I would lay the record of the 
National Security Agency out for anyone who would care to look 
at it and to see what it is we've done in the past 3 years for 
intimate, immediate, direct support for American combat forces.
    If the office of the DNI can raise the water level of the 
entire American intelligence community, it just simply improves 
the ability of that community to provide the specific support 
that our forces need.
    Chairman Roberts. One other question in reference to the 
press article that was referred to by Senator Levin. Tell me if 
you agree with the following comments--that it is not unusual 
to request this type of information, that it has happened 
before, not only this administration, but in previous 
administrations; such requests are not in and of themselves 
inappropriate; and there are, most importantly, Attorney 
General-approved processes in place to deal with such requests.
    Is that true? Is that correct?
    General Hayden. All true. Let me add one additional 
thought, Senator. Again, I think Senator Wyden talked about 
authorities and privacy.
    On balance, we're springloaded to minimize the U.S. person 
information in the report. We are allowed, for example, to 
actually put it in the original report if it is our judgment 
that that information is essential to understanding the 
intelligence value of that report. I think that's an exact 
quote from the intelligence directive.
    On balance we're very cautious, we're very conservative 
about that. On balance we're probably under-shooting in terms 
of putting the U.S. identity in at the beginning. That then 
prompts the request for the U.S. identity.
    It is routine, Senator.
    Chairman Roberts. Well, I'm a little late in doing this, 
but I have here before me--and I apologize to Senator Levin for 
reading this without him being here, but I'll share it with him 
as soon as possible:

          ``The procedure for requesting a U.S. person identity when 
        NSA publishes a SIGINT product that references a U.S. person 
        references a generic one, i.e., `U.S. person.' A person who 
        receives an NSA product and who requires the specific identity 
        for the performance of his official responsibilities may ask 
        for the specific identity.
          An office in the Signals Intelligence Organization at NSA is 
        responsible for tracking and responding to such requests. If 
        that office determines that the person making the request needs 
        the information for the performance of his official 
        responsibilities and if the information is necessary to 
        understand the foreign intelligence or assess its importance, 
        he will authorize the release of the information. The specific 
        identities will be made available only to those individuals 
        submitting specific requests for these identities.''

    Am I correct?
    General Hayden. All true.
    Chairman Roberts. That's it. OK.
    Thank you very much for coming. Thank you for the job you 
have done. And thank you for the job that you will do.
    General Hayden. Thank you, Senator.
    Chairman Roberts. The Committee stands adjourned.
    [Whereupon, at 12:10 p.m., the Committee adjourned.]
      
    [GRAPHIC] [TIFF OMITTED] T4985.001
    
    [GRAPHIC] [TIFF OMITTED] T4985.002
    
    [GRAPHIC] [TIFF OMITTED] T4985.003
    
    [GRAPHIC] [TIFF OMITTED] T4985.004
    
    [GRAPHIC] [TIFF OMITTED] T4985.005
    
    [GRAPHIC] [TIFF OMITTED] T4985.006
    
    [GRAPHIC] [TIFF OMITTED] T4985.007
    
    [GRAPHIC] [TIFF OMITTED] T4985.008
    
    [GRAPHIC] [TIFF OMITTED] T4985.009
    
    [GRAPHIC] [TIFF OMITTED] T4985.010
    
    [GRAPHIC] [TIFF OMITTED] T4985.011
    
    [GRAPHIC] [TIFF OMITTED] T4985.012
    
    [GRAPHIC] [TIFF OMITTED] T4985.013
    
    [GRAPHIC] [TIFF OMITTED] T4985.014
    
    [GRAPHIC] [TIFF OMITTED] T4985.015
    
    [GRAPHIC] [TIFF OMITTED] T4985.016
    
    [GRAPHIC] [TIFF OMITTED] T4985.017
    
    [GRAPHIC] [TIFF OMITTED] T4985.018
    
    [GRAPHIC] [TIFF OMITTED] T4985.019
    
    [GRAPHIC] [TIFF OMITTED] T4985.020
    
    [GRAPHIC] [TIFF OMITTED] T4985.021
    
    [GRAPHIC] [TIFF OMITTED] T4985.022
    
    [GRAPHIC] [TIFF OMITTED] T4985.023
    
    [GRAPHIC] [TIFF OMITTED] T4985.024
    
    [GRAPHIC] [TIFF OMITTED] T4985.025
    
    [GRAPHIC] [TIFF OMITTED] T4985.026
    
    [GRAPHIC] [TIFF OMITTED] T4985.027
    
    [GRAPHIC] [TIFF OMITTED] T4985.028
    
    [GRAPHIC] [TIFF OMITTED] T4985.029
    
    [GRAPHIC] [TIFF OMITTED] T4985.030
    
    [GRAPHIC] [TIFF OMITTED] T4985.031
    
    [GRAPHIC] [TIFF OMITTED] T4985.032
    
    [GRAPHIC] [TIFF OMITTED] T4985.033
    
    [GRAPHIC] [TIFF OMITTED] T4985.034
    
    [GRAPHIC] [TIFF OMITTED] T4985.035
    
    [GRAPHIC] [TIFF OMITTED] T4985.036
    
    [GRAPHIC] [TIFF OMITTED] T4985.037
    
    [GRAPHIC] [TIFF OMITTED] T4985.038
    
    [GRAPHIC] [TIFF OMITTED] T4985.039
    
    [GRAPHIC] [TIFF OMITTED] T4985.040
    
    [GRAPHIC] [TIFF OMITTED] T4985.041
    
    [GRAPHIC] [TIFF OMITTED] T4985.042
    
    [GRAPHIC] [TIFF OMITTED] T4985.043
    
    [GRAPHIC] [TIFF OMITTED] T4985.044
    
  

                                  <all>

</pre></body></html>
